DOE/IG-0543




               AUDIT
              REPORT


                               RELATIVISTIC HEAVY ION
                                 COLLIDER PROJECT




                                     MARCH 2002




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                                March 6, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Relativistic Heavy Ion Collider
                       Project"

BACKGROUND

The Relativistic Heavy Ion Collider (RHIC), located at Brookhaven National Laboratory, is the
world's newest and largest particle accelerator for nuclear physics research. RHIC was
constructed between 1991 and 1999 at a reported cost of $617 million and is designed to
enhance scientific exploration by advancing our understanding of the most basic constituents
that make up the matter in our universe. The accelerator features a pair of superconducting
magnetic rings, 2.4 miles in circumference, which circulate beams of heavy ions in opposite
directions at nearly the speed of light. Where the ions collide at crossing points around the
rings, sophisticated detectors are used to help scientists gain insights into the characteristics of
quarks and gluons, two fundamental building blocks of matter.

In August 1999, the Office of Science determined that the RHIC project was completed on
schedule and within budget, and designated the RHIC as an operating facility. RHIC achieved
its first beam collisions in June 2000 and, in July 2001, scientists began operating the facility
with beam collisions at full-energy levels. The RHIC is currently operating as a state-of-the-art
research facility and represents an accomplishment of which many individuals in the
Department and at Brookhaven are justifiably proud.

The objective of this audit was to determine whether the RHIC project met performance and
cost expectations when it was designated as an operating facility.

RESULTS OF AUDIT

We determined that when the RHIC project was declared complete and designated as an
operating facility in August 1999, beam collisions, which were expected for project completion,
had not taken place, and the facility was not ready to begin operations with beam-collision
experiments. Also, we noted that the cost of the project exceeded its $617 million budget by
about $32 million. Consequently, in August 1999, the Department did not have an operational
facility and prematurely reported to Congress that the project was complete. In addition, other
                                                -2-


Brookhaven projects and activities had to absorb about $20 million in overhead that should have
been charged to the RHIC project.

While the RHIC project's ultimate outcome was positive, the Department's experience offers, in
our judgment, a number of important project management lessons learned. In this context, we
concluded that, for future projects, the Department should ensure that (i) established
performance expectations are met prior to designating facilities as completed and ready for
operations; and, (ii) all applicable overhead and other project specific costs are included in total
project costs. The audit report includes recommendations to this effect.

MANAGEMENT REACTION

Although management agreed to implement the recommendations, it contended that the RHIC
project was completed on time and within budget and that it met Departmental and
Congressional expectations and guidance. Thus, on these crucial points, we have a fundamental
disagreement. However, the purpose of the audit will be satisfied if the recommendations
included in the report are applied to future projects.

A summary of management's comments, along with our response, is presented on page 8 of this
report. Additionally, we have included management's comments in their entirety as Appendix 3
and have addressed specific management comments in the body of the report.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Acting Director, Office of Science
RELATIVISTIC HEAVY ION COLLIDER PROJECT

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 1


                Project Expectations Not Met

                Details of Finding.......................................................................3

                Recommendations and Comments ...........................................8


                Appendices

                Scope and Methodology...........................................................10

                Prior Audit Reports ...................................................................11

                Management Response ...........................................................13
OVERVIEW


INTRODUCTION AND   The Relativistic Heavy Ion Collider (RHIC) is the world's newest and
OBJECTIVE          biggest particle accelerator for nuclear physics research. The RHIC,
                   located at Brookhaven National Laboratory (Brookhaven), is designed
                   to open a new domain of scientific exploration by probing forces acting
                   among the most basic and mysterious constituents that make up the
                   matter in our universe: quarks and gluons. These fundamental particles,
                   trapped inside protons and neutrons, constitute the nuclei of all atoms.
                   RHIC features a pair of superconducting magnetic rings, 2.4 miles in
                   circumference, which can circulate beams of heavy ions in opposite
                   directions at nearly the speed of light. Where the ions collide at
                   crossing points around the rings, sophisticated detectors search for new
                   insight into the characteristics of quark-gluon plasma.

                   The Department of Energy (Department) reported that the RHIC was
                   constructed between 1991 and 1999 at a cost of $617 million. The
                   Department built the RHIC using abandoned facilities (ring tunnel,
                   experimental areas, support buildings, and liquid helium refrigerator)
                   that remained from the partially completed ISABELLE/Colliding Beam
                   Accelerator (CBA) Project, which was terminated in 1983. These
                   facilities were used to house the RHIC's two beam rings, four detectors,
                   and support areas.

                   In August 1999, the Department's program office responsible for
                   project oversight, the Office of Science, determined that the RHIC
                   Project was completed on schedule and within budget, and designated
                   the RHIC as an operating facility. The facility achieved its first beam
                   collisions in June 2000. Thirteen months later, in July 2001, scientists
                   took the RHIC to a new level by operating with beam collisions at full-
                   energy levels. The RHIC is currently operating as a state-of-the-art
                   research facility.

                   The objective of this audit was to determine whether the RHIC Project
                   met performance and cost expectations when it was designated as an
                   operating facility.

CONCLUSIONS AND    The RHIC Project did not fully meet performance and cost expectations
OBSERVATIONS       when it was designated as an operating facility. Specifically, we
                   determined that expected beam collisions were not achieved and the
                   project's budget was exceeded. When the project was declared
                   complete and designated as an operating facility, beam collisions,
                   which were expected for project completion, had not taken place, and
                   the facility was not ready to begin operations with beam-collision



Page 1                                                        Introduction and Objective
         experiments. Also, while project costs were reported to be within budget
         when the project was declared complete, the cost of the project exceeded
         the budget by about $32 million. Project expectations were not fully
         achieved because the Department did not adhere to project plans that
         called for beam collisions to be achieved before project completion and
         did not ensure that all costs specifically incurred for the project were
         included in total project costs. As a result, the Department did not have
         an operational facility in August 1999 and prematurely reported to
         Congress that the project was completed. In addition, other Brookhaven
         projects and activities had to absorb about $20 million in overhead that
         should have been charged to the RHIC Project.

         The Office of Inspector General has issued several reports in recent
         years that have made recommendations to enhance the Department's
         management of major projects. These reports are summarized in
         Appendix 2.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                       (Signed)
                                              Office of Inspector General




Page 2                                          Conclusions and Observations
PROJECT EXPECTATIONS NOT MET


Planning Documents      Project plans should identify the point at which a project is complete
Anticipated             and clearly delineate a project's end product and the specific parameters
Beam-Collisions at      of project completion. The requirement to clearly define project
Completion, and         completion was stated in Department Order 4700.1, Project
Department Policy       Management System, which was in effect at the start of the RHIC
Required That Project   Project. Likewise, Department Order 430.1, Life Cycle Asset
Costs Include All       Management, which replaced Order 4700.1 during the RHIC Project,
Costs Specific to a     also called for a plan with clear technical performance measures in
Project                 place in order to test and evaluate performance and verify operational
                        readiness. Department policy states that the project completion
                        milestone (CD-4) occurs when a project has demonstrated that it has the
                        capability to meet its approved technical performance goals.
                        Additionally, Department policy states that total project costs should
                        include all costs specific to a project that were incurred through startup
                        of the facility, but prior to the operation of the facility.

                        For the RHIC Project, planning documents anticipated that beam
                        collisions would occur at project completion. The Project Plan,
                        prepared at the start of the project, stated that the first collisions of
                        energy beams were expected to be available for experimenters at
                        project completion and start of operations. Additionally, the Project
                        Management Plan stated that the RHIC Project's startup and
                        commissioning process would ultimately include tests of colliding
                        beams and, at the end of the project's startup phase, the collider would
                        be ready to perform experimental research. Also, an "end-game" study,
                        added to the Project Management Plan in 1995, stated that the
                        commissioning period would demonstrate high-energy beam collisions.
                        Further, a revised end-game study, dated January 1998, stated that
                        demonstration of gold ion beam collisions would constitute the
                        completion of the RHIC Project. Then, in January 1999, the
                        Department approved a project completion definition that included the
                        demonstration for commissioning of the injection, capture, and
                        acceleration of gold or proton beams as well as storage and collision of
                        beams at one or more collision points. Finally, in February 1999,
                        Brookhaven prepared a commissioning plan that anticipated the
                        collisions of gold beams would occur during a planned June 1999
                        commissioning run.

Performance and Costs   The RHIC Project did not fully meet performance and cost expectations
Expectations Were Not   when it was designated as an operating facility. Specifically, expected
Achieved at Project     beam collisions were not achieved and the project's budget was
Completion              exceeded. When the project was declared complete and designated as
                        an operating facility, beam collisions, which were expected for project
                        completion, had not taken place, and the facility was not ready to begin

Page 3                                                                        Details of Finding
         operations with beam-collision experiments. Also, while project
         costs were reported to be within budget when the project was
         declared complete, the cost of the project had exceeded the budget
         by about $32 million.

             Beam Collisions Were Not Achieved at Project Completion

         Although beam collisions were not yet achieved, the Office of
         Science approved completion of the RHIC Project and designated the
         RHIC as an operating facility in August 1999. At that time,
         Brookhaven had achieved capture, storage, and acceleration of ions
         in only one of the RHIC's two rings, and therefore, beam collision
         had not taken place. Thus, the RHIC Project was not ready to begin
         experimental research using colliding beams.

         After August 1999, Brookhaven continued readying the RHIC for
         beam collisions and routine operations. Beam collisions were not
         achieved until June 2000, which was 10 months after the approval of
         project completion. Brookhaven did not request approval to begin
         routine operations until September 2000, and the Department
         subsequently approved routine operations to begin in
         November 2000. During the period from August 1999 to June 2000,
         Brookhaven expended $66 million in RHIC operating funds. We
         could not determine the portion of the $66 million expended to
         achieve beam collisions because these expenditures included
         maintenance, enhancements, repairs, and other tasks to ready RHIC
         for routine operations. In our opinion, a significant portion of the
         $66 million was expended to obtain beam collisions.

          Overhead, GPP, and Maintenance Costs Were Omitted from Total
                                 Project Costs

         Also, when the RHIC Project was declared complete, the Office of
         Science and Brookhaven reported that total project costs were within
         the project's $617 million budget. However, we determined that the
         cost of the project had exceeded the budget by about $32 million,
         which consisted of about $20 million of overhead costs and at least
         $12 million of general plant projects (GPP) and maintenance costs
         that were omitted from the total project cost.

         During the startup phase, Brookhaven undercharged about
         $20 million of overhead costs to the RHIC Project. Specifically,
         Brookhaven charged overhead to the startup phase of the RHIC


Page 4                                                    Details of Finding
         Project using an incremental rate of 1.6 percent rather than the full
         overhead rates, which ranged between 35 and 45 percent during the
         startup phase. Total reported costs for the startup phase were about
         $65 million.

         Overhead is the indirect type expense that is not directly identifiable
         with a project or activity, but provides benefit to multiple projects
         and activities. Overhead is generally allocated to all projects and
         activities on some equitable basis, such as a percentage applied to
         direct labor or to total direct cost, in order that all projects and
         activities bear an equitable share of overheads. If any project is
         charged less than its equitable share of overhead, other projects or
         activities are, in effect, supplementing the cost of that project.

         The Department's policy required that a project should receive its full
         share of contractor overhead during the research and development
         and startup phases. However, during the construction phase, projects
         were permitted to receive a smaller, incremental overhead rate that
         resulted only from construction activity. Despite the Department's
         policy, Brookhaven charged overhead to the RHIC Project during the
         startup phase using the incremental rate, which should have been
         charged only during the construction phase. As a result, the RHIC
         Project was undercharged about $20 million at the expense of other
         Brookhaven projects and activities.

         Additionally, total project costs did not include at least $12 million
         of GPP and maintenance funds used for refurbishing and upgrading
         the abandoned ring tunnel and the experimental and support areas in
         which the RHIC was constructed. The refurbishments and upgrades
         included replacing or repairing components and infrastructure that
         had deteriorated or needed to be upgraded. For example,
         Brookhaven spent $3.1 million to upgrade the electrical distribution,
         emergency ventilation, and fire alarm systems throughout the RHIC
         tunnel enclosure; and about $400,000 to install earth shielding,
         membrane liners, and fencing at RHIC beam crossing points.

         However, the Department and Brookhaven believed that the costs of
         refurbishing and upgrading the abandoned CBA facilities should not
         be included in total project costs. In responding to the draft report,
         management stated that the decisions to use GPP and special
         maintenance funds were made in accordance with the Department's
         project management and budget requirements and the project scope
         with full knowledge and agreement of Department management in


Page 5                                                       Details of Finding
                             the field and at Headquarters. Management also stated that the
                             RHIC line-item project scope included completion of the unfinished
                             portions of the CBA facilities as well as new conventional
                             construction work, and that the Department expected Brookhaven to
                             accomplish all work necessary to deliver the CBA facilities in good
                             working order for use by the project.

                             Despite management's contention, none of the Congressional budget
                             requests or project planning documents indicated that GPP and
                             maintenance funds would be used for this effort, or that upgrades to
                             the CBA facilities would be excluded from the total project cost.
                             This work was performed specifically for the RHIC Project and
                             would not have been performed if the CBA facilities were not
                             needed for the project. Therefore, the cost for this effort should have
                             been included in the total cost for the RHIC Project.

Department Did Not Adhere    Project expectations were not fully met because the Department did
to Planned Expectations      not adhere to project plans that called for beam collisions to be
for Project Completion and   achieved before project completion. In August 1999, after the
Ensure All Costs Were        project passed its June 1999 planned milestone date for completion,
Charged to the Project       and as the project's funding limit was being reached, the Department
                             determined that sufficient progress had been made to designate the
                             RHIC Project as completed. At that time, the Department and
                             Brookhaven stated that the level of performance achieved in only
                             one of RHIC’s two rings was sufficient to demonstrate that the
                             collider was completed and would ultimately realize its long-range
                             technical objectives.

                             In responding to the draft report, management stated that for the
                             RHIC Project, the Office of Science had the discretion to define and
                             modify the evidence required for determining when a facility has
                             demonstrated its capability to meet its technical performance goals,
                             and thus be declared a completed project. In August 1999, the
                             Office of Science concluded that the RHIC's achievements were a
                             clear demonstration of its capability to meet technical performance
                             goals, and thus declared the project complete. Management contends
                             that the validity of this decision is demonstrated by the subsequent
                             technical performance of the RHIC.

                             We recognize that the RHIC has demonstrated performance that
                             should ultimately lead to achieving its technical goals as an operating
                             facility. However, the RHIC had not achieved expected beam




Page 6                                                                          Details of Finding
         collisions and was not ready to begin experimental research when it
         was declared complete in August 1999. Department policy,
         consistent with sound project management principles, requires that
         project plans identify the point at which a project is complete and
         define the specific parameters for project completion.

         Additionally, the Department's oversight of the RHIC did not ensure
         that all project specific costs were accurately charged to the RHIC
         Project. Specifically, the Department did not periodically review
         project costs to ensure that overhead was accurately charged to the
         startup phase of the project. Consequently, Brookhaven charged
         overhead to the RHIC Project during the startup phase using the
         incremental rate, which should have been charged only during the
         construction phase.

         However, management contends that the $65 million reported as
         startup costs was for pre-operational testing of project components in
         the construction phase, and not for startup costs. Thus, they were
         appropriately charged with the 1.6 percent incremental overhead rate
         established for the construction phase. In addition, management
         stated that no specific funds were provided for startup until Fiscal
         Year (FY) 1999, when Brookhaven was provided
         $22.5 million for commissioning activities following approval of
         CD-4.

         We disagree with management's interpretation that the $65 million
         was not a startup cost. Project documents, including the
         Congressional Data Sheets, identified the $65 million as startup cost
         and, as such, should have been charged with full overhead. For
         example, the Final Project Acceptance Report described the
         $65 million as startup costs for training of operating crews; operation
         of subsystems upon completion of individual systems, or separable
         parts thereof; and, integration of all subsystem operations for the
         final goal of completing the construction project. This description is
         consistent with the definition of startup contained in Order 2200.6A.
         Moreover, these project costs were funded with operating funds, as is
         appropriate for startup activities. In our opinion, if these costs were
         not startup costs and were for pre-operational testing of project
         components in the construction phase, they should have been funded
         with construction funds in accordance with Department policy.
         Furthermore, in establishing its construction phase incremental
         overhead rate, Brookhaven did not consider these costs to be part of
         the construction phase.


Page 7                                                      Details of Finding
                           We did not review the $22.5 million for commissioning activities
                           identified in management's response to the draft report. However, if
                           these costs were also incurred for startup activities, they should have
                           also been included in total project costs.

RHIC Was Not Operational   At the time the RHIC Project was designated as complete in August
and Completion Was         1999, the Department did not have a fully operational facility. In
Prematurely Reported       fact, the facility did not meet its established goal of beam collisions
                           until June 2000, and did not begin routine operations until FY 2001.
                           Additionally, the Department prematurely reported to Congress that
                           the RHIC Project had met its performance measures to be completed
                           and to begin operations in FY 1999. These performance measures
                           were established in accordance with the Government Performance
                           and Results Act of 1993. Also, other Brookhaven projects and
                           activities had to absorb about $20 million in overhead that should
                           have been charged to the RHIC Project, and total RHIC Project costs
                           were understated.

RECOMMENDATIONS            We recommend, for current and future Department projects, that the:

                                 1. Acting Director, Office of Science require that projects
                                    meet established performance expectations prior to
                                    designating facilities as completed and ready for operations;
                                    and,

                                2. Chicago Operations Office and Brookhaven Area Office
                                   ensure that all applicable overhead and other project
                                   specific costs are included in total project costs.

MANAGEMENT REACTION        The Office of Science agreed with the recommendations, but did not
                           agree with the report's conclusions. Management contended that the
                           RHIC Project was completed on time and within budget, met
                           Departmental and Congressional expectations and guidance, and
                           delivered on Congressional commitments with no
                           misrepresentations. Management also maintained that the Chicago
                           Operations Office and Brookhaven Area Office, which carried out
                           the day-to-day oversight of the project, adequately performed their
                           responsibilities with respect to the RHIC Project. Additionally,
                           management stated that all applicable overhead and other project
                           costs were included in total project costs. The Office of Science
                           acknowledged, however, that the clarity of RHIC Project
                           documentation could have been improved, and stated that it is
                           committed to improving the quality of project documentation for
                           ongoing and future projects.

Page 8                                                     Recommendations and Comments
AUDITOR COMMENTS   We appreciate management's commitment to improving project
                   documentation; however, the Office of Science did not offer specific
                   corrective actions that would be taken in response to our
                   recommendations. Management comments on the validity of the
                   finding, along with our responses, have been incorporated into the text
                   of this report. We have also included management's comments in their
                   entirety as Appendix 3.




Page 9                                              Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from March 2001, to November 2001, at the
              Brookhaven National Laboratory (Brookhaven) and the Department's
              Brookhaven Area Office, located in Upton, New York; and the Office
              of Science, Headquarters, in Washington, D.C. The audit covered the
              Relativistic Heavy Ion Collider (RHIC) Project, which started in 1991
              and ended in 1999, and focused on the performance expectations
              established for project completion and use of non-RHIC funds on the
              project.

METHODOLOGY   To accomplish the audit objective, we:

                   • Researched applicable laws, regulations, contract terms,
                     policies, procedures, and guidance relevant to the RHIC
                     Project;

                   • Reviewed project planning documentation and the process for
                     project acceptance and completion;

                   • Analyzed supporting documentation for tasks related to
                     refurbishing the abandoned CBA facilities at Brookhaven;

                   • Evaluated accounting records and supporting documentation
                     for overhead costs charged to the RHIC Project;

                   • Interviewed Department and Brookhaven personnel regarding
                     the determination of project completion, the allocation of
                     overhead costs, and use of General Plant Project and
                     maintenance funds; and,

                   • Assessed compliance with the Government Performance and
                     Results Act of 1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits. It included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our audit
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. In
              performing this audit, we did not rely significantly on computer-
              generated data.

              An exit conference was held with representatives of the Office of
              Science and the Brookhaven Area Office on January 28, 2002.


Page 10                                                     Scope and Methodology
Appendix 2

PRIOR OFFICE OF       Progress of the Spallation Neutron Source Project (DOE/IG-0532,
INSPECTOR GENERAL     November 2001). The project's technical scope was reduced to allow
REPORTS RELATING TO   the cost and schedule components to be met. The July 2001 baseline
PROJECT MANAGEMENT    for the project did not provide for instruments to address the initially
                      planned areas of science, complete user facilities, and critical spare
                      parts to be available at the end of the construction project. This
                      condition existed because the Department decided to meet the approved
                      budget rather than ask Congress for additional funding. As a result of
                      the scope reductions made to the project at this early stage, the facility
                      will not provide all of the intended leading-edge user facilities and
                      capabilities to meet the needs of the scientific community at the end of
                      the construction project.

                      Audit of Renovation and New Construction Projects at Lawrence
                      Livermore National Laboratory (WR-B-97-06, June 1997). Three
                      projects were being pursued despite the fact that management had not
                      demonstrated that the proposed approaches for the projects were the
                      best alternatives for meeting the Department's missions while
                      minimizing the cost to the Government.

                      Special Report on the Audit of the Management of Department of
                      Energy Construction Projects (DOE/IG-0398, November 1996). The
                      Department's construction plans were not always updated to reflect
                      emerging program and mission changes resulting in the potential
                      construction of unneeded or oversized facilities. We recommended that
                      the Department's field project managers, in coordination with program
                      offices and field elements, perform effective evaluations of the
                      Department's current and future mission needs as part of the annual
                      approval process for ongoing and planned construction projects.

                      Summary Audit Report on Lessons Learned from the Superconducting
                      Super Collider Project (DOE/IG-0389, April 1996). Instruments for a
                      new facility are difficult to estimate due to rapidly evolving technology.
                      Therefore, a phased approach to baseline instruments was
                      recommended. Specifically, the facility should be baselined first with
                      an allowance for instruments. Scientific instrumentation costs should
                      not be baselined until later when better information is available.

                      Audit of Construction Management at the Idaho National Engineering
                      Laboratory (WR-B-96-03, October 1995). Seven ongoing construction
                      projects were either not needed or larger than needed.




Page 11                                                                   Prior Audit Reports
          Audit of Construction of an Environmental, Safety, and Health
          Analytical Laboratory at the Pantex Plant (WR-B-96-02, October
          1995). A new environmental, safety, and health laboratory was planned
          even though mission requirements were already being satisfied either at
          onsite laboratories or commercial laboratories.

          Audit of Construction of Protective Force Training Facilities at the
          Pantex Plant (WR-B-95-06, May 1995). Construction of a physical
          training facility was not necessary to fulfill mission needs, and viable
          alternatives to constructing a weapons tactics and training facility were
          not considered.

          Audit of the Department of Energy's Environmental Molecular Sciences
          Laboratory (DOE/IG-0371, April 1995). All practical alternatives
          were not evaluated before deciding to proceed with the construction of
          a new research laboratory.

          Audit of Management Controls Over Selected Energy Research Major
          System Acquisition (CR-B-95-02, November 1994). "Other
          management costs" for major system acquisitions were not adequately
          included in the project management system and received less
          management attention than construction costs. Also, certain
          management practices did not ensure that the objectives of enduring
          accountability, traceability, and visibility of decisions at all levels were
          met.




Page 12                                                         Prior Audit Reports
Appendix 3




Page 13      Management Response
Page 14   Management Response
Page 15   Management Response
Page 16   Management Response
Page 17   Management Response
                                                                              IG Report No.: DOE/IG-0543

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
